June 12, 2009


Memorandum for:        The Federal Co-Chair
                       ARC Executive Director

Subject:               OIG Report 9-02
                       Memorandum Report on Review of
                       University of Alabama Child Development and
                       Research Center (CDRC)
                       Tuscaloosa, Alabama
                       ARC Grant Number: CO-14150-I-302


Attached is the report dealing with the review of ARC Grant Number: AL-14150-I-302.

ARC awarded Grant Number: AL-14150-I-302 to the University of Alabama for the construction
of the CDRC. The initial grant, approved in May 2002, was for an amount not to exceed
$5,000,000 with $400,000 in local funding. In May 2003, ARC funding was increased to
$9,967,000 with $400,000 in local funding, $980, 000 of U.S. Department of Education (DoEd)
funding and $462,500 in U.S. Department of Housing and Urban Development (HUD) funding.
The ARC has made payments of $8,927,937 to the grantee as of January 19, 2007. The grant
provided funding for a project consisting of the construction and furnishing of the CDRC on the
University of Alabama campus.

The report contains two recommendations which are considered closed based on University of
Alabama actions and ARC assurances. The report is now considered closed.




Clifford H. Jennings
Inspector General
Attachment

cc: Director- Program Operations Division
